 DOE/IG-0549




         AUDIT                 IDAHO OPERATIONS OFFICE
                              PLANNED CONSTRUCTION OF A
        REPORT                WASTE VITRIFICATION FACILITY




                                                APRIL 2002




 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                      U. S. DEPARTMENT OF ENERGY
                            Washington, DC 20585

                                   April 1, 2002



MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman (Signed)
                          Inspector General

SUBJECT:                   INFORMATION: Audit Report on "Idaho Operations Office Planned
                           Construction of a Waste Vitrification Facility"

BACKGROUND

In 1995, the Office of Inspector General evaluated planned construction projects at the Idaho
National Engineering and Environmental Laboratory. In our resulting audit report, we
questioned a number of the projects because they were not needed to support the Laboratory's
mission, or because they were inappropriately sized. At the time, we found that the Department
was not consistently verifying the need for projects, nor was it identifying and evaluating
alternatives. As a result of the audit, the Department agreed to more aggressively manage
construction by canceling unnecessary projects and thoroughly assessing alternatives at the
Idaho site.

Currently, the Department's Idaho Operations Office has a five-year plan, covering Fiscal Years
2001 through 2005, which details construction activities and upgrades to existing facilities at the
Laboratory. These activities are collectively valued at $3.3 billion. The largest single project in
the five-year plan is a waste vitrification facility that, by itself, is expected to cost approximately
$2.5 billion. The facility would treat two separate types of waste: sodium-bearing liquid waste;
and, high-level radioactive calcine waste that is currently in a solid, granular form. A 1995
Settlement Agreement between the Department and the State of Idaho established milestones for
removing both types of waste from the State over the next several decades.

In light of our earlier work and the considerable resources Idaho plans to spend on construction
activities, we conducted an audit to determine whether alternatives to constructing the waste
vitrification facility were given adequate consideration.

RESULTS OF AUDIT

Our review found that the Department had not adequately considered potentially less costly
alternatives to constructing the vitrification facility, including several proposed by the National
Research Council. These options would allow Idaho to treat the liquid waste by upgrading an
existing facility for as little as $80 million and deferring action on solid waste until technical
uncertainties are resolved. The Department chose not to fully consider other approaches
because it interpreted the Settlement Agreement to require that Idaho's waste be "road ready" by
the milestone date of 2035 and judged that vitrifying the waste was the only treatment process
that would meet this milestone. Consequently, the Department may spend significant funds to
construct a facility that may ultimately prove to be unnecessary.
                                              -2-


To address this situation, we recommended that the Assistant Secretary for Environmental
Management require Idaho to fully evaluate alternatives to constructing the waste vitrification
facility and to negotiate approval for any alternatives deemed appropriate with the State.

At your direction, the Office of Environmental Management recently completed a "Top-to-
Bottom" review of its program mission and activities. The resulting report, which was
published subsequent to completion of our audit field work, included the conclusion that the
Department should consider alternatives to vitrification – including steam reforming,
calcination, saltstone, or other grouting techniques – where such methodologies are feasible.
According to the review team, these approaches may be appropriate, and less costly than
vitrification, for tank waste containing low-activity and transuranic constituents.

MANAGEMENT REACTION

The Assistant Secretary expressed fundamental agreement with the audit conclusions. She
also noted that, consistent with the "Top-to-Bottom" review, the Office of Environmental
Management recently made the decision to modify the current baseline and, potentially, the
treatment alternative for Idaho high-level waste, pending the results of further study and
acquisition activities.


Attachment

cc: Chief of Staff
    Under Secretary for Energy, Science and Environment
    Assistant Secretary for Environmental Management
IDAHO OPERATIONS OFFICE PLANNED CONSTRUCTION OF A WASTE
VITRIFICATION FACILITY


TABLE OF
CONTENTS



                 Overview

                 Introduction and Objective .......................................................... 1

                 Conclusions and Observations ................................................... 1


                 Alternatives to the Waste Vitrification Facility

                 Details of Finding ....................................................................... 3

                 Recommendations and Comments ........................................... 7


                 Appendices

                 Scope and Methodology ........................................................... 11

                 Related Reports........................................................................ 13

                 Other Matters............................................................................ 14

                 Management's Comments ........................................................ 15
OVERVIEW


INTRODUCTION AND   The Department of Energy's (DOE) Idaho Operations Office (Idaho)
OBJECTIVE          has a five-year plan to construct or upgrade facilities at the Idaho
                   National Engineering and Environmental Laboratory (INEEL). The
                   plan covers Fiscal Years 2001 through 2005 construction projects,
                   collectively valued at $3.3 billion.

                   The largest single project in the five-year plan is a waste vitrification
                   facility that, by itself, is expected to cost $2.5 billion upon completion.
                   The vitrification facility would treat two separate types of waste:
                   sodium-bearing liquid waste (liquid waste) and high-level radioactive
                   calcine waste (solid waste) that is currently in a solid, granular form. A
                   1995 Settlement Agreement between DOE and the State of Idaho
                   established milestones for removing both types of waste from the State
                   over the next several decades.

                   In 1995, the Office of Inspector General issued a report on the Audit of
                   Construction Management at the Idaho National Engineering
                   Laboratory (WR-B-96-03, October 1995), in which we questioned a
                   number of planned construction projects because they were not needed
                   to support INEEL's mission or because they were larger than necessary.
                   At the time, we found that Idaho was not consistently verifying the need
                   for projects, nor was it identifying and evaluating alternatives. Idaho
                   concurred with our findings and recommendations and agreed to more
                   aggressively manage construction by canceling unnecessary projects
                   and thoroughly assessing alternatives. In light of our earlier work, we
                   conducted this audit to determine whether alternatives to constructing
                   the waste vitrification project were given adequate consideration.


CONCLUSION AND     DOE officials did not adequately consider less costly alternatives to the
OBSERVATIONS       preferred alternative of constructing the vitrification facility even
                   though they were aware of them. These options would allow Idaho to
                   treat the liquid waste by upgrading an existing facility for as little as
                   $80 million (estimated project cost) and defer action on the solid waste
                   until technical uncertainties involving solid waste are resolved. DOE
                   chose not to consider alternative approaches because it interpreted the
                   Settlement Agreement to require that Idaho's waste be "road ready" by
                   the milestone date of 2035, and judged that vitrifying the waste was the
                   only treatment process that would meet this milestone. As a result, the
                   Department may spend significant funds to construct a facility that may
                   ultimately prove to be unnecessary.




Page 1                                                        Introduction and Objective/
                                                           Conclusions and Observations
         We recommended that the Assistant Secretary for Environmental
         Management require Idaho to fully evaluate alternatives to constructing
         the waste vitrification facility and to negotiate any such alternatives
         deemed appropriate with the State.

         During the audit, we also noted that Idaho did not fully consider
         alternatives to two additional projects in its five-year construction plan.
         Because these projects were either on-going or recently completed, we
         have not made formal recommendations. Nevertheless, we are
         concerned that, taken together with the planned construction of the
         vitrification facility and our 1995 findings, indications are that Idaho
         has not yet adopted a rigorous process for full analysis on construction
         projects and feasible alternative approaches. These matters are briefly
         discussed in Appendix 3.

         The audit identified issues that management should consider when
         preparing its year-end assurance memorandum on internal controls.




                                                          (Signed)
                                                 Office of Inspector General




Page 2                                           Conclusions and Observations
ALTERNATIVES TO THE WASTE VITRIFICATION FACILITY

Alternatives to Waste   DOE officials did not adequately consider alternatives to the preferred
Vitrification           alternative of constructing the vitrification facility even though they
                        were aware of them. The alternative approaches would allow Idaho to
                        treat the liquid waste first by upgrading an existing calcining facility or
                        building a new cesium ion exchange facility and defer action on the
                        solid waste until technical uncertainties involving solid waste are
                        resolved.

                                                       Current Plans

                        As currently envisioned, the proposed waste vitrification facility would
                        consist of an 83,000 square foot processing building with basement
                        levels extending 32 feet below grade. It would also include a 21,000
                        square foot calcine processing addition and a 12,000 square foot single-
                        story administration building. The process for vitrification consists of
                        mixing the waste with glass powders, melting the mixture at about 1150
                        degrees centigrade in a special melter lined with ceramic brick, and
                        pouring the melt into waste containers. After cooling, the resulting
                        nuclear waste glass products would be generally homogeneous, non-
                        crystalline materials with high chemical durability. The glass products
                        would then be shipped to a permanent high-level waste repository.

                        The vitrification facility would be constructed to convert both liquid
                        and solid wastes into glass. However, because these waste streams
                        differ significantly and cannot be treated concurrently, the proposed
                        project plan calls for the facility to be designed to treat the liquid waste
                        first. Once this is accomplished, the facility would undergo a major
                        modification of its waste feed system in order to treat the solid waste.
                        Initial design and construction would take place between 2003 and
                        2015, with vitrification of liquid waste commencing upon completion
                        and taking about 2 years. Plant modification would take another 2
                        years, after which high-level waste vitrification would proceed until
                        about 2035.

                                                Liquid Waste Alternatives

                        In a December 1999 report commissioned by DOE, the National
                        Research Council (Council) described six alternatives to the
                        vitrification of liquid waste. Five of these options centered on
                        evaporation techniques that would solidify the liquid waste. In these
                        scenarios, the resulting materials would likely be categorized as
                        transuranic (TRU) waste, packaged in drums or other containers, and
                        stored onsite or shipped to a TRU waste repository. The sixth
                        alternative was that Idaho's liquid waste be solidified using an existing


Page 3                                                                          Details of Finding
         facility at the INEEL, the New Waste Calcine Facility. The Council's
         report implies that under this approach, Settlement Agreement criteria
         would be met cost effectively and with minimal risk to INEEL workers.
         The Council did not consider vitrification to be a reasonable treatment
         method for Idaho's liquid waste and focused its attention, instead, on the
         shorter-term, more cost-effective technologies described above.

         An internal report completed by Bechtel in 2000 also concluded that the
         preferred treatment process for liquid waste would be to solidify the
         waste in the existing calcining facility or, alternatively, to solidify the
         waste using another treatment technology, such as cesium ion
         exchange. Like the Council, the contractor identified other treatment
         alternatives as well. The contractor specifically rejected the alternative
         of vitrification as it was deemed to be an uneconomical alternative.

                                 Solid Waste Alternatives

         The Council's 1999 report also recommended that processing the solid
         waste be deferred and the waste remain in its current storage facility.
         The Council cited several reasons for its preferred option, including the
         following:

            •   In its current state, high-level solid waste at INEEL does not
                pose a hazard to public health or the environment.

            •   The waste is in a storage facility designed to last 500 years.

            •   Selecting a treatment option, such as vitrification, is premature
                given the many uncertainties regarding disposition of this waste.

         The report discussed several major uncertainties regarding the ultimate
         disposition of high-level waste, including the fact that the proposed
         repository (Yucca Mountain) does not have final waste acceptance
         criteria. The preliminary waste acceptance criteria is subject to change,
         and in fact, is currently in its third revision. The Council noted the
         possibility that the planned repository may even accept Idaho's solid
         waste in its current calcined form. Further, since it is uncertain whether
         the repository will have sufficient capacity to dispose of Idaho's solid
         waste, the Council reasoned that preparing Idaho's waste for permanent
         disposal at this time may not be the most prudent course of action.
         Finally, the Council concluded that the longer the solid waste remains
         in its current storage facility, the more the radioactive isotopes will
         decay. Accordingly, in a few decades, this waste could be processed
         with less technical risk and less potential radiological exposure. In

Page 4                                                          Details of Finding
                        summary, the Council report concluded that if solid waste were vitrified
                        associated risks and costs may far exceed the risks of continued storage,
                        and there would be no certainty that the vitrified waste could be shipped
                        out of the state.

                        Although the Council recommended DOE perform an environmental,
                        safety and health analysis comparing the relative risks of processing
                        solid waste in a vitrification plant against the alternative of leaving the
                        waste in its current storage facility for a few decades prior to treatment,
                        none was performed. Idaho officials told us that this analysis was not
                        conducted because the alternative of deferring vitrification was not
                        formally considered.

DOE Guidance            The 1995 Settlement Agreement between DOE and the State of Idaho
                        requires that Idaho's solid waste calcine be treated in a form suitable for
                        transport to a high-level waste repository, or interim storage facility
                        outside of Idaho, by December 31, 2035. Additionally, the liquid waste
                        shall be calcined by December 31, 2012. However, the Settlement
                        Agreement allows for re-negotiation of this milestone if the decision
                        made in the National Environmental Policy Act (NEPA) process selects
                        a different path forward.

                        The NEPA provides the conceptual framework for choosing among
                        alternatives. An Environmental Impact Statement (EIS) must
                        "rigorously explore and objectively evaluate all reasonable alternatives,
                        and for alternatives which were eliminated from detailed study, briefly
                        discuss the reasons for their having been eliminated." The primary
                        objective of an EIS is to serve as an action-forcing device to insure that
                        the policies and goals defined in the NEPA are infused into the ongoing
                        programs and actions of the Federal Government. Council on
                        Environmental Quality regulations direct all Federal agencies to use the
                        NEPA process to identify and assess the reasonable alternatives to
                        proposed actions that would minimize adverse effects of these actions
                        upon the quality of the human environment. These regulations further
                        state that "reasonable alternatives include those that are practical or
                        feasible from a common sense, technical, or economic standpoint. The
                        number of reasonable alternatives considered in detail should represent
                        the full spectrum of alternatives meeting the agency's purpose and
                        need."

Interpretation of the   DOE chose not to consider alternative approaches because it interpreted
Settlement Agreement    the Settlement Agreement to require that Idaho's waste be "road ready"
                        by the milestone date of 2035, and judged that vitrifying the waste was
                        the only treatment process that would meet this milestone. DOE chose
                        not to exercise the provision in the Settlement Agreement that allowed

Page 5                                                                         Details of Finding
                           for re-negotiation of the 2035 milestone based on the preferred
                           alternative identified in the NEPA process. Thus, DOE did not include
                           reasonable alternatives in its formal NEPA analysis. In effect, DOE
                           allowed the Settlement Agreement to dictate the parameters of the
                           NEPA process, rather than allowing the NEPA process to run its course
                           and modify the Settlement Agreement accordingly.

                           By interpreting the Settlement Agreement as it did, DOE limited
                           alternatives to those that met the milestones in the Settlement
                           Agreement and mitigated unknowns. DOE preferred vitrification
                           because it is assumed that borosilicate glass, or vitrified waste, would
                           be the only waste form acceptable in the high-level waste repository.
                           Additionally, the choice of vitrification resolved a dispute between
                           DOE and the State regarding the waste classification level of the liquid
                           waste. The State contended that liquid waste was high-level waste,
                           whereas DOE (and the Council) considered the liquid to be transuranic
                           waste. The choice of vitrification results in a waste form that is
                           assumed to be acceptable at either a high-level waste or at a transuranic
                           waste repository.

                           Based on our analysis of the re-negotiation clause of the Settlement
                           Agreement and of the Council's report, we concluded that DOE has
                           both the authority and the obligation to follow the customary NEPA
                           process requiring consideration of alternatives. NEPA specifically
                           requires consideration of reasonable alternatives that are practical or
                           feasible from a common sense, technical, or economic standpoint. The
                           alternatives recommended by the Council and Bechtel appear
                           reasonable and should have been formally considered in the EIS. In
                           fact, DOE specifically tasked the Council to develop alternatives for
                           consideration in the EIS.

More Cost Than Necessary   If DOE does not give serious consideration to alternatives to its plans to
                           construct the waste vitrification facility, it may incur unnecessary costs
                           and build a facility that is not needed. Risks of radiological exposure
                           may also be greater than necessary.

                           The vitrification facility could cost $2.5 billion, with design and
                           construction taking over a decade to complete. Cost data for alternative
                           proposals have not been fully developed because DOE has not yet
                           thoroughly reviewed the alternatives. However, some data is available
                           indicating that options recommended by the Council and by Bechtel
                           would be far less costly, at least in the near term. Both the Council and




Page 6                                                                           Details of Finding
                       Bechtel, for example, discussed upgrading INEEL's existing calcining
                       facility to treat liquid waste. Bechtel estimated that the necessary
                       upgrades could be completed by 2008 at a cost of as little as
                       $80 million. Bechtel also estimated that a new cesium ion exchange
                       facility, which would also effectively treat the liquid waste, could be
                       built by 2008 and cost about $330 million.

                       Regarding the solid waste, deferring the decision to vitrify until
                       technical and other uncertainties are resolved will help to ensure that
                       DOE spends only those funds that are absolutely necessary. If DOE
                       builds the vitrification facility now, it may not act in the most efficient
                       manner to meet a permanent repository's waste acceptance criteria,
                       other regulatory requirements, or its commitments to the State of Idaho.

                       Additionally, according to the Council report, vitrification has a great
                       deal more technical risk and potential for radiological exposure than if
                       the solid waste is left in its current storage containers. Thus, the most
                       prudent approach with regard to safety and environmental concerns
                       may be deferring action on the solid waste until a determination is made
                       that vitrification is, in fact, required.


RECOMMENDATIONS        We recommended that the Assistant Secretary for Environmental
                       Management require Idaho to:

                       1. Fully evaluate alternatives to constructing the waste vitrification
                          facility; and,

                       2. Negotiate any such alternatives deemed appropriate with the State.


MANAGEMENT REACTION    In written comments on our draft report, the Assistant Secretary for
AND AUDITOR COMMENTS   Environmental Management expressed fundamental agreement with the
                       audit conclusions. She noted that independent of the Office of
                       Inspector General review, the Office of Environmental Management
                       recently made the decision to modify the current baseline and preferred
                       treatment alternative for the Idaho High-Level Waste Program, pending
                       the results of further study and acquisition activities. The Assistant
                       Secretary's comments, which are responsive to our recommendations,
                       are included as Appendix 4.

                       The Office of Environmental Management also provided a number of
                       comments intended to clarify various issues raised in our draft report.
                       Those comments, along with our responses, are summarized on the
                       following pages.

Page 7                                                  Recommendations and Comments
         Management Comment

         Environmental Management noted that a vitrification facility could be
         built to treat sodium-bearing waste for $600 million. In management's
         view, the $2.5 billion estimate we relied on was too high since it was
         based on a facility to vitrify both sodium bearing waste and high-level
         waste calcine.

         Auditor Response

         The $600 million estimate was for a facility to treat only the liquid
         waste. The $2.5 billion was for a facility to treat both waste streams
         and it was included as part of Environmental Management's final
         Environmental Impact Statement, dated September 2001. We used the
         higher figure because, in our judgment, it more fairly represented the
         potential costs of DOE's preferred alternative.

         Management Comment

         Environmental Management asserted that the preferred alternative
         selection process was rigorous and included consideration of less costly
         alternatives and options. Management suggested that it has in the past
         and continues to consider a wide range of treatment alternatives in the
         environmental impact statement.

         Auditor Response

         We agree that DOE considered a wide range of alternatives; however,
         based on our audit, we concluded that management did not adequately
         consider alternatives suggested by the National Research Council. In
         fact, DOE did not establish the Council's recommendations as
         alternatives for formal consideration in the Final Environmental Impact
         Statement. We found this troubling given that DOE specifically tasked
         the Council to review its planned approach and recommend alternatives
         for consideration in the impact statement process.

         Management Comment
         Environmental Management asserted that all of the treatment
         alternatives considered in the EIS, with the exception of taking no
         action on solid waste, are projected to complete treatment by 2035.




Page 8                                    Recommendations and Comments
         Auditor Response

         We agree that in the EIS, several options were considered for treating
         liquid and solid waste by 2035. However, with regard to the treatment
         alternatives, vitrification was the only option deemed able to meet the
         2035 milestone for all the waste to be "road ready." By limiting its
         options for treating the solid waste to only those that meet the
         milestone, DOE eliminated exploring ideas recommended by the
         National Research Council. For example, DOE did not consider the
         option of disposing of the solid waste at the proposed repository in its
         current calcined form, which would be far less expensive than
         constructing a vitrification capability.

         Management Comment

         Environmental Management stated that the Office of Inspector General
         may have improperly framed the National Research Council's six
         alternatives to vitrification. Management asserted that since the
         baseline treatment at the time of the issuance of the Council report was
         calcination, the Academy must have been describing six alternatives to
         calcination of the sodium bearing liquid waste.

         Auditor Response

         We strongly disagree. In its report section dealing with sodium-bearing
         liquid waste, the Council specifically states that "If the approach of this
         chapter is adopted, the final waste form for [sodium-bearing waste]
         need not be a vitrified one…." Clearly, the six suggested options were
         alternatives to vitrification, not calcination.

         Management Comment

         Environmental Management expressed concern about our
         representation of issues we raised regarding the Health Physics
         Instrumentation Laboratory project (Appendix 3 of this report).
         Specifically, management asserted that alternatives such as outsourcing
         were documented in the 1997 conceptual design report, and the Office
         of Inspector General did not consider them.




Page 9                                      Recommendations and Comments
          Auditor Response

          We did review the 1997 analysis, but found that the underlying data
          was not current. In fact, this study was based upon dated, unduly
          optimistic projections that the Laboratory would calibrate twice the
          number of instruments than actual experience could support. We also
          found no evidence that outsourcing was seriously considered.




Page 10                                   Recommendations and Comments
APPENDIX 1

SCOPE         The audit was performed from April 4, 2001, to January 17, 2002, at the
              Idaho and Bechtel offices in Idaho Falls, Idaho. The audit scope was
              limited to construction projects in Idaho's Fiscal Year 2001 Five-Year
              Plan. The Five-Year Plan covers planned line items and general plant
              projects for the years 2001 through 2006. We judgmentally selected a
              sample of five of a total of 24 planned/ongoing line item construction
              projects. Our judgmental sample of five projects examined $2.5 billion
              dollars or 75 percent of the $3.3 billion dollar universe of planned line
              item construction projects. Of the five projects examined, one was
              cancelled during our fieldwork and another was determined to be too
              early in the planning phase to determine if alternatives were considered.


METHODOLOGY   To accomplish the audit objective, we:

              •   Obtained and reviewed construction management planning and
                  authorization documents;

              •   Reviewed applicable DOE regulations;

              •   Reviewed prior OIG audits;

              •   Selected a judgmental sample of five construction projects of the 24
                  line item projects in the Five-Year Plan for detailed review;

              •   Reviewed construction cost data and cost estimates;

              •   Interviewed key personnel in the DOE Idaho Operations Office;

              •   Relied on DOE EM-6 cost estimates for the proposed vitrification
                  facility1; and,

              •   Reviewed NEPA documentation for the Waste Vitrification
                  Facility.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Specifically, we
              tested controls with respect to Idaho's planning process for the
              construction of new facilities. Additionally, we assessed internal

              1
               DOE EM-6 estimated $2.5 billion to construct the Waste Vitrification Plant. Idaho's
              estimate in its Five-Year Plan was $997 million. As a result, we adjusted the universe
              by $1.5 billion to $3.3 billion total.
Page 11                                                             Scope and Methodology
          controls and performance measures established under the Government
          Performance and Results Act of 1993 and determined that there were
          specific performance goals or standards that pertained to this audit.
          However, the specific construction performance goals in the Idaho
          Performance Evaluation Measurement Plan were too new to assess their
          effectiveness. Because our review was limited, it would not necessarily
          have disclosed all internal control deficiencies that may have existed at
          the time of our audit. We did not rely on information processed on
          automated data processing equipment to accomplish our audit objective.

          We discussed this audit with the Idaho Operations Office and Office of
          Environmental Management during an exit conference on February 5,
          2002.




Page 12                                                Scope and Methodology
APPENDIX 2

                                          RELATED REPORTS




    •     Audit of Construction Management at the Idaho National Engineering Laboratory,
          (WR-B-96-03, October 1995). The audit identified five construction projects totaling about
          $4.3 million that were not needed and two others totaling $38 million that were oversized
          by a combined $22.1 million. If Idaho verifies and reassesses the need for all planned
          construction projects, it could potentially save and reprogram more than $26.4 million. One
          of the projects found to be oversized and justified on the basis of outdated results was the
          Health Physics Instrumentation Laboratory.

    •     Audit of Renovation and New Construction Projects at Lawrence Livermore National
          Laboratory, (WR-B-97-06, June 1997). Livermore had not demonstrated that it had
          selected the best alternatives for meeting DOE's needs while minimizing cost, for three
          projects. Livermore was able to pursue these projects because the Operations Office did not
          ensure that the laboratory had performed cost and benefit analyses of all alternatives.
          Further, the Operations Office did not establish benchmarks to assess the reasonableness of
          the total costs of designing, constructing, and managing these projects. As a result, it was
          likely that DOE was spending more than necessary on renovation and new construction
          projects.

    •     Special Report on the Audit of the Management of Department of Energy Construction
          Projects, (DOE/IG-0398, November 1996). Past OIG reports showed that (1) construction
          plans were not always updated when mission needs changed, and (2) projects were not
          needed or all alternatives were not fully evaluated prior to proceeding with construction of
          new facilities.




Page 13                                                                                    Related Reports
APPENDIX 3
                                          OTHER MATTERS


    Idaho did not fully consider alternatives to two additional projects in its five-year plan.
    Because the projects discussed below were either on-going or recently completed, we have not
    made formal recommendations.

    Health Physics Instrumentation Laboratory

    In 1991, Idaho proposed to construct a new Health Physics Instrumentation Laboratory. A
    report issued by the OIG in 1995 questioned the size of the proposed new laboratory and the
    studies done to justify its need. As a result of the report, management reduced the size of the
    facility, but continued to use the same questionable studies to support the need for the facility.
    The underlying assumptions used in the studies were never updated or validated. In June 2001,
    we issued a memorandum to Idaho expressing our concerns about the planned construction of
    this facility. We met with the Idaho Manager in August 2001, however, the proposed
    construction project proceeded.

    In lieu of constructing a $13.6 million facility, a proposed alternative was to build a
    $5.6 million facility that would satisfy a requirement to maintain core capabilities on-site. With
    this alternative, the majority of calibration work would have been outsourced to another DOE
    field site or to a new private vendor in Idaho Falls, while the smaller facility could perform
    calibration work during emergencies. If outsourced, the calibration work would be less
    expensive. For instance, in 2001 calibration work was outsourced to a Hanford laboratory
    because the current Idaho laboratory was closed due to safety violations. The Hanford
    laboratory calibrated Idaho's instruments for $110 per instrument while Idaho's laboratory
    charged $300 per instrument. In addition, a new vendor in Idaho Falls now provides calibration
    service for radiation detection instruments at a cost of $150 per calibration. In fact, this local
    vendor has instrument calibration contracts with other DOE sites and commercial entities.
    Despite these available alternatives, Idaho chose to build a full-size facility that cost $8 million
    more than a facility that would maintain core capabilities. Likewise, Idaho did not consider an
    alternative construction proposal for the Records Storage Facility.

    Records Storage Facility

    According to a January 2001 cost estimate prepared by Bechtel, Idaho could have used standard
    construction practices to build this facility to meet its record storage needs at a cost of
    $2.7 million at the INEEL site. Instead, Idaho built its facility to higher Departmental standards
    at a cost of $4.5 million in Idaho Falls. Idaho's application of higher standards was particularly
    questionable since the facility was built in the city of Idaho Falls rather than on the INEEL site.

    Idaho will spend at least $9.8 million more than necessary for both the Records Storage Facility
    ($1.8 million) and the Health Physics Instrumentation Laboratory ($8 million).



Page 14                                                                                       Other Matters
APPENDIX 4




Page 15      Management's Comments
Page 16   Management's Comments
Page 17   Management's Comments
Page 18   Management's Comments
Page 19   Management's Comments
Page 20   Management's Comments
Page 21   Management's Comments
                                                                              IG Report No.: DOE/IG-0549

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
